<html>
<title> - AMERICAN RECOVERY AND REINVESTMENT ACT OF THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 111-569]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-569

  AMERICAN RECOVERY AND REINVESTMENT ACT OF THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

   REVIEW THE NATIONAL PARK SERVICE'S IMPLEMENTATION OF THE AMERICAN 
                  RECOVERY AND REINVESTMENT ACT (ARRA)

                               __________

                              MAY 5, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources

                  U.S. GOVERNMENT PRINTING OFFICE
57-794 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee









                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Hosseini, Mahmoud R., Division President, Clark Construction 
  Group, LLC.....................................................    13
Sheaffer, C. Bruce, Comptroller, National Park Service, 
  Department of the Interior.....................................     2
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                                APPENDIX

Responses to additional questions................................    15

 
  AMERICAN RECOVERY AND REINVESTMENT ACT OF THE NATIONAL PARK SERVICE

                              ----------                              


                         WEDNESDAY, MAY 5, 2010

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Good afternoon. The purpose of today's hearing is to review 
the National Park Service's implementation of the American 
Recovery and Reinvestment Act, to assess the progress made so 
far, and to look at what work remains to be completed in the 
next few months.
    The National Park Service received significant new funds 
through the Act, $750 million for deferred maintenance, 
critical repairs and new construction, equipment replacement, 
and other critical park needs. In addition, $170 million was 
appropriated for road repairs and restoration through the Park 
Roads and Parkways Program of the Federal Highway 
Administration.
    When I became chairman of this subcommittee last year, one 
of the first issues I focused on was oversight of how these 
funds are being spent. At that time, the Park Service, like 
many other Federal agencies, had only just begun to spend a 
small fraction of the available funds. So, a hearing focusing 
on the details seemed premature.
    Now, that we're 14 months into the program and less than 5 
months away from its completion, this is the right time to 
review the Park Service's progress and hear about any issues to 
program completion.
    Our parks are national treasures that speak to the best of 
who we are and where we are going as a Nation. Keeping the 
parks in a condition that maintains a quality visitor 
experience while protecting the environment is an ongoing 
challenge.
    I look forward to hearing how the Park Service has utilized 
the significant funding from the Recovery Act to help care for 
these public lands.
    Let me now recognize our ranking member, Senator Burr, for 
any remarks he may have.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    As many know, I was not supportive of the American Recovery 
and Reinvestment Act last year, and there remains tremendous 
division over whether the bill is, or will actually, accomplish 
its intended goal. Fortunately, today we're not here to discuss 
the entire stimulus package, but just one small part.
    National Park Service received $920 million through the 
stimulus, and has stated that they hope to finish the 
allocation plans by mid-May on each of these dollars. While 
that's welcome news, unfortunately, up to this point only 9 
percent of the National Park Service stimulus funds have 
actually been spent.
    If that number's incorrect, I hope you'll correct me today.
    I look forward to understanding why such a low percentage 
of the funding has been spent, up to this point. It's important 
to note that the stimulus package's effectiveness depends not 
only on how much is spent, but also when it's spent.
    I thank the chairman.
    Senator Udall. I thank the ranking member, and I appreciate 
his point of view. I'm also pleased he's here, but I know he 
will have important questions for our witness.
    I might add, before I turn to Mr. Sheaffer for his 
testimony, that we've been informed that perhaps we may have as 
many as 3 votes at 2:45 p.m.
    Mr. Sheaffer, you should feel free to go ahead and provide 
us with your testimony.
    Bruce Sheaffer is the comptroller of the National Park 
Service, Department of the Interior.
    Thank you for coming up to the Hill. The floor is yours. We 
look forward to your testimony.

  STATEMENT OF C. BRUCE SHEAFFER, COMPTROLLER, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Sheaffer. Thank you, Mr. Chairman, Senator.
    I'll try to be very brief, given your schedule, as I 
understand it. I'll go quickly and get to questions I assume 
that you may have.
    As you said, you summarized well--we had $750 million of 
the total governmentwide $275 billion available for contracts/
loans targeted to do Federal work--not only do Federal work, 
but to create, of course, jobs nationwide.
    The Park Service's Recovery Act funding was divided among 3 
appropriations: $146 million for the operational account, to 
address minor needs; $589 million for construction; $15 million 
for Historically Black Colleges and Universities grant money 
and, as you mentioned, money from the Federal Highway--through 
the Federal Highway Administration, of $170 million.
    As of late February, the $146 million in the operating 
account slated for execution of 653 park maintenance projects--
and I must say that some of these projects have been awaiting 
funding for many years--so it was a marvelous opportunity for 
the Park Service to advance the cause--$589 million in 
construction was being used to execute 82 facility projects, 28 
road projects, and, quite importantly, 36 abandoned mine 
restoration projects.
    Projects were selected using a merit-based criteria. They 
were drawn from existing priority lists, almost exclusively to 
do deferred-maintenance-type projects, Mr. Chairman.
    By late April, 57 percent of all NPS Recovery Act funds had 
been obligated. The number stands, today, at 61 percent. By 
mid-May, we expect to have 90 percent of it obligated. The 
remaining 10 percent will be programmed through September, with 
some being held to cover change orders that may occur on the 
obligated projects; some to cover very late obligations that we 
had planned all along, the largest of which is right here in 
the District of Columbia, for the Reflecting Pool.
    The Service's suggested use of the recovery funding is due, 
in part, to development of 2 project lists. One list contained 
projects ready for execution, and another contained contingency 
projects. I believe we've spoken before, a number of times, 
about the fact that we actually made the list large enough to 
accommodate potential changes, and, as it turns out, a very 
favorable bidding climate that we noticed servicewide. We were 
able to advance, on the construction list, every project that 
had been over-target, as we described it, to the in-target 
program.
    We face some challenges going forward. No. 1, Recovery Act 
obligation authority expires September 30, and we want to make 
the point, of course, that we have executed this in the face of 
this relatively tight deadline. Many projects will extend into 
the following year, and will require close attention to ensure 
all contracting program and project management and contingency 
requirements are met.
    No. 2, the Act's special emergency temporary hiring 
authority will also cease September 30. We are working within 
the administration to resolve that potential issue.
    Finally, the contracting workload associated with the 
Recovery Act projects will result in awarding some scheduled 
projects funded from a variety of sources. We will focus on 
expediting the award of these projects as soon as possible.
    Mr. Chairman, that concludes my statement. I have a formal 
statement for the record.
    [The prepared statement of Mr. Sheaffer follows:]
  Prepared Statement of C. Bruce Sheaffer, Comptroller, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today on the National Park Service's 
experience with implementing the American Recovery and Reinvestment Act 
of 2009 (Recovery Act).
    The Recovery Act was enacted on February 17, 2009, shortly after 
the 111th Congress convened and President Obama took office, as a 
direct response to the severe economic crisis that the nation was 
experiencing. The act had the immediate goals of creating new jobs and 
saving existing ones and spurring economic activity and investment in 
long-term growth. It aimed to achieve those goals by making $275 
billion available for federal contracts, grants and loans, targeted at 
infrastructure development and enhancement. Of the total amount 
appropriated, the National Park Service received $750 million. 
Additionally, the act provided $170 million for the Federal Highway 
Administration (FHWA) to spend on improving park roads.
                                overview
    The $750 million appropriated for the National Park Service is in 
three separate appropriations accounts: (1) $146 million for Operation 
of the National Park System (ONPS), to address minor park deferred or 
cyclic maintenance needs, including repair of trails; (2) $589 million 
for Construction; and (3) $15 million for the Historic Preservation 
Fund, specifically for grants for historic preservation projects at 
Historically Black Colleges and Universities (HBCUs).
    The $589 million appropriated to address major construction needs 
has been divided among four categories of projects: facility 
construction, road construction, abandoned mine lands restoration, and 
equipment replacement. With this funding, the National Park Service was 
in the process of executing, as of late February, 82 facility projects, 
28 road projects, 36 abandoned mine restoration projects, and six 
equipment replacement projects. Updates of these project numbers are in 
process. A sampling of these projects is attached to this statement.
    With the $15 million that was appropriated for repairs to 
facilities at HBCUs, 21 grants at 20 universities have been approved 
and are in planning. Grantees have three years to complete the approved 
work.
    With the $170 million appropriated to the FHWA to address road 
improvement needs in national park units, 31 projects are underway and 
two additional projects are anticipated. Together with the 28 NPS road 
projects, these FHWA projects have resulted in 620 miles of NPS roads 
that have been or will be repaired or treated for preservation.
    Projects were selected using merit-based criteria to address 
Servicewide priorities and based on our ability to obligate funds 
within the timeframe of the appropriation. The vast majority of 
approved projects address either cyclic repairs or rehabilitation of 
existing assets.
                           obligation status
    As of late April, 57 percent of all NPS Recovery Act funds had been 
obligated. Our goal is to obligate approximately 90 percent by mid-May. 
The remaining 10 percent of funding is programmed through September 30 
for ongoing management costs, the hiring of summer seasonal laborers 
for in-house projects such as trail work, and to execute two approved 
facility construction projects slated to be awarded in August: 
rehabilitation of the Lincoln Memorial Reflecting Pool, and 
rehabilitation of the King Gillette Ranch at Santa Monica Mountains 
National Recreation Area. The FHWA's $170 million was 87 percent 
obligated as of late-April; the remainder is expected to be obligated 
by the end of June.
                     strategies for implementation
    The Park Service has employed a number of strategies to ensure 
successful use of Recovery Act funds. First, initial project lists 
included both ``in-target'' projects, which were those approved for 
execution, and ``over-target'' projects, which were those approved for 
planning, design and compliance but where execution would depend on 
availability of funds. This allowed the National Park Service to 
substitute projects when in-target projects proved not viable. Second, 
the National Park Service established a management oversight group of 
senior-level managers who meet regularly to review progress and 
recommend adjustments. Third, temporary personnel were hired to 
increase capacity in contracting, budgeting and management/oversight. 
Fourth, where necessary, the Service modified internal processes to 
track progress and facilitate the orderly dropping or adding of 
projects for execution. Finally, we contracted as much of the proposed 
work as possible, using a number of techniques to accelerate the 
process, such as the use of indefinite-quantity (IDIQ) contracts and 
multiple-award task-order contracts, and contracting with FHWA to 
execute many of the NPS-funded road projects.
                  stretching the recovery act funding
    Favorable pricing on large construction projects, along with the 
efficiencies we employed in the contracting process, resulted in 
savings of over 20 percent totaling approximately $129 million by early 
2010. Those savings have allowed us to fund an additional 30 high-
priority contingency projects across the country.
    We are doing far more than we originally projected we could do with 
$750 million. With the funding in the ONPS account, used for minor, but 
high-priority park repairs, our original list of 643 projects had 
grown, as of late-February, to 653. As of that same date, in the 
Construction account we were executing 82 facility projects instead of 
60; 28 road projects, not just 17; and 36 abandoned mine restoration 
projects.
    Another benefit of the Recovery Act to the National Park Service is 
that we have forged a stronger partnership with FHWA, which has proved 
invaluable in meeting our goals. FHWA executed 14 of the National Park 
Service's road projects. Of the total 61 road projects, over 42 have 
either been awarded directly by FHWA or by the National Park Service 
with significant assistance from FHWA's engineering staff.
              challenges facing the national park service
    One challenge the National Park Service faces in connection with 
the Recovery Act is that availability of the funds will expire 
September 30, 2010. Many projects will extend in to the following year 
and will require our close attention to ensure that all the 
contracting, program and project management, as well as project 
contingency requirements, are met in an efficient and transparent 
manner.
    Second, in authorizing the Recovery Act, Congress provided a 
special emergency temporary hiring authority to address the increased 
workload. That authority will expire September 30, but the workload 
these positions were hired to perform will continue for some time.
    Third, the contracting workload associated with executing Recovery 
Act projects will result in delays in awarding some scheduled projects 
funded from other sources. The National Park Service will focus on 
expediting the award of these projects as soon as possible.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you and the other members of the 
subcommittee may have.
              Attachment.--Recovery Act Project Highlights
rehabilitate lincoln reflecting pool and rehabilitate surrounding area, 
            national mall and memorial parks, washington, dc
    This project will rehabilitate the Lincoln Memorial Reflecting Pool 
and the surrounding cultural landscape. Work will include stabilizing 
the foundation and repairing the surface features of the pool, 
providing pumping and drainage capabilities from the Potomac River to 
reduce the use of potable water and provide continuous filtering of the 
water, and upgrading the lighting and paths around the pool. Projected 
cost: $33 million. Status: Planning/Design Under Way; Contract Award 
Scheduled for August, 2010.
  rehabilitate union building interior, keweenaw national historical 
                             park, michigan
    This project will rehabilitate the interior of the Union Building 
for use as the Keweenaw National Historical Park's first interpretive 
facility. This project follows a comprehensive rehabilitation of the 
Union Building exterior in 2005. Projected cost: $4 million. Status: 
Contract Award Pending.
 stabilize ellis island seawall, statue of liberty national monument, 
                          new york/new jersey
    This project will complete Phase I of the rehabilitation of 
portions of the 6,736 foot historic seawall that surrounds Ellis 
Island. Projected cost: $22.4 million. Status: Contract Award Pending.
    Two other major construction projects at Statue of Liberty National 
Monument include Installing Perimeter Security and Communication Lines 
around Liberty and Ellis Islands ($2.1 million) and Stabilizing the 
Ellis Island Baggage and Dormitory Building ($6.7 million). Status of 
both: Contract Award Pending.
demolish and replace madison wastewater facility, yellowstone national 
                             park, wyoming
    This project will replace the circa 1959 trickling filter 
wastewater treatment facility at the Madison Area with an aerated 
lagoon-type system and subsurface disposal. Cost: $4.9 million. Status: 
Under Way.
 provide accessibility to park comfort stations and picnic camp sites, 
    great smoky mountains national park, north carolina & tennessee
    This project will rehabilitate 10 existing comfort stations 
including replacing two that are beyond their useful life. The comfort 
stations will be made structurally and mechanically sound. Roofs, 
windows, plumbing and wood work will be repaired and or replaced at 
each comfort station and all will meet accessibility standards. Also, 
picnic and campsites will be improved by the construction of accessible 
parking spaces with a connecting accessible walkway to the camp or 
picnic site. Cost: $3.3 million. Status: Under Way.
    Also, 4 roads projects totaling $17 million have been awarded at 
Great Smoky Mountains National Park, and 4 more projects are pending 
contract awards totaling an estimated $16 million.
   demolish and replace condemned portions of quarry visitor center, 
             dinosaur national monument, colorado and utah
    This project will rehabilitate the quarry face exhibit shelter and 
demolish and replace the failed and condemned visitor service and 
administrative spaces at the Quarry Visitor Center (QVC) that have been 
closed to public use since July, 2006. Cost: $8.4 million. Status: 
Under Way.
   replace waterline, chapin mesa to north park boundary, mesa verde 
                        national park, colorado
    This project will replace five sections totaling approximately 5.4 
miles of the existing deteriorated water line that provides the park's 
only source of water. Cost: $5.4 million. Status: Contract Awarded.

    Senator Udall. Your statement will be included in the 
record. Thank you for being succinct.
    My young and wise and experienced Ranking Member informs me 
that he thinks we probably have a--the votes are called at 
2:45--til about 5 after, even 10 after, to direct some 
questions your way. So, why don't we do a series of 5-minute 
question periods. I'll start out and recognize myself for 5 
minutes.
    I want to focus again on what you said about obligating the 
available funds. There's some time involved. I understand the 
administration has a goal of 90 percent of appropriated funds 
being obligated by May 15. According to your testimony, Park 
Service has obligated 57 percent. Are you--as of late April--I 
think maybe you said 61 or----
    Mr. Sheaffer. Right.
    Senator Udall. Are you on track to obligate another 33 
percent over the next few days?
    Mr. Sheaffer. We have been closely monitoring all of the 
activities that are required up to the actual awarding of the 
contract. I will say that, while anything, of course, can 
happen in the late stages of contracting, I feel very confident 
we're going to come at or very close to that 90 percent number 
by the end of May.
    Senator Udall. Is there a cutoff date, Mr. Sheaffer, by 
which money not obligated for a specific project will be 
transferred to a different project that would be able to 
complete its funding in a more timely manner?
    Mr. Sheaffer. We've not had to make that decision yet. 
We've not had any projects that reached the point where we had 
to make that decision. The legal cutoff, of course, is 
September 30. It's our goal, ultimately, to obligate every 
penny of this money by that point. So, for these 2 or 3 
projects that we have, that are scheduled to go very late in 
the fiscal year, clearly a decision will have to be made about 
those by August or September.
    Senator Udall. But, in general, you don't think you're 
going to be in that position, is what I hear you saying.
    Mr. Sheaffer. We do not.
    Senator Udall. All right.
    Mr. Sheaffer. It is our intention to execute every in-
target project on that list. Now, should it become, for funding 
reasons or contracting reasons or compliance reasons, 
impossible to do so, it's our intention to find another fund 
source for those projects, probably from a lump-sum program 
available to us this year, like the Repair/Rehab Program or a 
future-year construction program. We're committed to doing each 
and every one of those projects, so they'll get done, one way 
or the other.
    Senator Udall. When the initial project list was developed, 
I understood that one of the main requirements was that only 
shovel-ready projects were to be included, projects that were 
already in your priority list. If that was the case, why has it 
taken so long to get the money out the door?
    Mr. Sheaffer. I'm going to say, Mr. Chairman, that it had a 
lot to do with the understanding of what it meant to be 
``shovel-ready.'' Our construction projects normally have a 3-
year lead-in timeframe from preplanning to planning, then to 
construction. We usually schedule the request accordingly.
    These projects were as ready to go as any we have. Frankly, 
the folks out in the service center that execute these 
programs, and elsewhere, have done a remarkable job of getting 
them ready. Even though we, in our minds, quote ``shovel-
ready,'' they still required some final compliance work to be 
done, some planning work, some packaging of bid documents and 
for $5-, $10-, $15-million projects, that still takes some 
considerable time.
    So, I can tell you that I am very pleased with the way the 
folks in the Park Service have performed. I think what is 
telling is, if we hit our target, we will have obligated, by 
the end of May, $690 million of this program in only a bit over 
a year. Despite the fact that the bill passed in February, we 
didn't get approval to go ahead until April. That is almost 3 
times what we obligate in any given year. So----
    Senator Udall. In a normal year.
    Mr. Sheaffer. In a normal year. Yes, sir.
    Senator Udall. That's fair enough. I--probably on the heels 
of this, we want to have ``shovel-ready,'' as defined in a 
variety of settings. But, hopefully we will not be in another 
great recession anytime soon, and we may not--hopefully, we 
won't have to use that term in the way we did, just a year ago, 
as you point out.
    My final question in this round is, the Park Service budget 
identified Recovery Act funds would employ up to 10,000 young 
people. Can you update us with the results, so far, when it 
comes to hiring young people to work?
    Mr. Sheaffer. Young people? Is it a question regarding 
youth or----
    Senator Udall. Youth--yes----
    Mr. Sheaffer [continuing]. Employment period?
    Senator Udall. Youth hiring, specifically.
    Mr. Sheaffer. The ARRA program includes roughly $23 million 
of projects to be directed to youth organizations. We don't 
have accurate numbers, at this point. Many of them will be 
brought on board this summer, to do summer work--trails, 
noxious weed removal, and the like. We estimate that that will 
produce something in the neighborhood of 3,000 to 3,500 summer 
jobs for youth. Some were employed last summer, but most of 
those are going to be brought on this summer.
    Part of the reason that it didn't get underway--it's mostly 
a summer program, of course--the large reason why they didn't 
get on board last summer is because the decisions of the 
project funding came very late to us. So, you have to get in 
early on those programs.
    Senator Udall. Senator Burr.
    Senator Burr. Mr. Sheaffer, how many jobs were created with 
the money that you've put in the system?
    Mr. Sheaffer. I'd like to give you 2 answers. There are 
contractor reporting requirements, that have been devised by 
OMB, where they report directly into a data base system. It's 
been difficult, frankly. It's required that we work with every 
single contractor to get them to understand the government 
terminology and the like to----
    Senator Burr. Tell you what, do this. Tell me how many 
permanent jobs were created.
    Mr. Sheaffer. None are permanent----
    Senator Burr. OK.
    Mr. Sheaffer [continuing]. Senator. These are temporary.
    Senator Burr. Were any foreign jobs created at the result 
of stimulus money?
    Mr. Sheaffer. Not that I'm aware of. No, sir.
    Senator Burr. OK.
    Mr. Sheaffer. No, sir.
    Senator Burr. What percentage of the Park Service stimulus 
funds went to new construction projects?
    Mr. Sheaffer. Almost none. We have, in the construction 
program--it's all repair, rehabilitation, cultural 
preservation, and the like. We have one project that is 
building a storage facility for curatorial artifacts----
    Senator Burr. Of the----
    Mr. Sheaffer. No new construction for visitors, at all.
    Senator Burr. Of the 9.5 billion in backlog--maintenance 
backlogs that the National Park Service has, how much of that 
was funded out of the stimulus package?
    Mr. Sheaffer. Virtually all of the $750 million went toward 
deferred maintenance. Very minor exceptions; that one project I 
mentioned to you. The money that went for abandoned mine lands, 
for example, Senator, is not actually a part of our deferred 
maintenance backlog, but it's necessary.
    Part of the reason is, we didn't have a good and accurate 
inventory of what our abandoned mine-lands projects were, so 
they've never been fed into the deferred maintenance list. But, 
if you look down that list, you'll see ``rehabilitate, repair, 
replace,'' that sort of thing.
    Senator Burr. According to----
    Mr. Sheaffer. That's----
    Senator Burr. According to the Department's Website, a 
total of $20 million--$20,456,000--was originally announced 
from my home State of North Carolina. Do you know how much of 
those funds have actually been spent to date?
    Mr. Sheaffer. No. I actually have different numbers for 
your State, Senator. I'll have to go check and see what the Web 
site says.
    Senator Burr. What do you----
    Mr. Sheaffer. Our records show $65 million actually went to 
the State of North Carolina. It may have been only 1 of the 2 
or 3 funding sources is being counted there. We show out of $65 
million about $40 million of it obligated so far.
    Senator Burr. I noticed to planned stimulus projects 
located on the Blue Ridge Parkway were actually completed using 
other funding, other than stimulus. Where were those funds----
    Mr. Sheaffer. You--I----
    Senator Burr [continuing]. Derived from?
    Mr. Sheaffer. I mentioned early, Senator, that regarding 
repair/rehabilitation--there were some delays in working 
through the early process. In the course of those delays, while 
projects were being considered, the region, because of the 
concern or urgency over the projects, went ahead and executed 
some of those projects out of our annual money that was 
available to us, for similar type work, repair and 
rehabilitation. So, they were funded out of other money 
available to us.
    Senator Burr. Again, according to your Website, eight 
planned projects from ARRA were canceled and seven projects 
were deferred. What would one interpret either cancellation or 
the deferment of those 15 projects to be around?
    Mr. Sheaffer. They were only a very small number. I'd have 
to go back and reconcile the numbers that you're telling me 
here. There was only a very small number that got canceled. 
Very small. Most of them got moved over to another fund source. 
I know for a fact of one project in North Carolina that was 
done out of the Dam Safety Program; again, they had it ready to 
go while we were still awaiting the final decision. So, that 
project would probably show up as canceled, in the ARRA 
program.
    Senator Burr. Was I accurate, in my opening statement, to 
say that you had spent just over 9 percent of the stimulus 
funding?
    Mr. Sheaffer. Spent, in terms of outlay, the number is now 
13 percent.
    Senator Burr. Thirteen percent.
    Mr. Sheaffer. Yes, sir.
    Senator Burr. So, stimulus package has been into effect 15 
months?
    Mr. Sheaffer. Approximately. Yes, sir.
    Senator Burr. We've spent 13 percent.
    Mr. Sheaffer. That's correct. In a normal year, with a 
normal appropriation for our construction account, the first-
year outlays for that account are under 20 percent. So, that's 
not an unusual outlay rate for our accounts.
    Senator Burr. But, would you agree that it's an unusual 
amount, given that this was a package to stimulate economic 
activity and job creation?
    Mr. Sheaffer. I would have to say that, for the type of 
work the Park Service needed to get done and got done, it has 
been a consistent rate. I think that, to us, the driver clearly 
was getting very important backlog work done. We have done that 
in a fairly expeditious manner.
    Senator Burr. What do you anticipate the spend-out rate to 
be at the end of 2010?
    Mr. Sheaffer. I do actually have an estimate, and I'd be 
glad to provide that to you.
    Senator Burr. Would you supply it for----
    Mr. Sheaffer. I would be happy to.
    Senator Burr. Let me ask this. What is the target for 
having 100-percent spend-out of stimulus money?
    Mr. Sheaffer. It will probably take 3 years to----
    Senator Burr. Three years?
    Mr. Sheaffer [continuing]. Spend it out. Yes, sir.
    Senator Burr. Any idea of how the 1-percent current spend-
out of stimulus money at Park Service compares to other 
agencies?
    Mr. Sheaffer. No, I don't, because it depends on what the 
other agencies are engaged in. If you're making grants, it 
spends out at a rate that sometimes is very different, because 
of the match required or not required, or the work to be done, 
or how much planning needed to be done. In most cases, if you 
were buying equipment or replacing stream gauges, as, say, the 
Fish and Wildlife Service was, that spend-out would be pretty 
quick. But, in the case of actually doing on-the-ground work 
and hands-on work, I doubt if anybody is doing a whole lot 
better than us.
    Senator Burr. So, I take for granted that, if I asked you a 
question of how you rate Park Service, relative to execution of 
your original plan, you would rate pretty good.
    Mr. Sheaffer. That would be my judgment. Yes, sir.
    Senator Burr. OK.
    Mr. Sheaffer. Yes, sir.
    Senator Burr. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Burr.
    Let me follow up on--in a general way, on Senator Burr's 
line of questioning. Large influx of money in a short time, I 
know it's been a unique management challenge, although, 
hopefully, a welcome one. Your testimony identified some of the 
challenges that the Park Service still faces to successfully 
implement the Act. Are there any important lessons to be 
learned, or unexpected surprises? You could answer to the best 
of your thinking now, and also answer for the record, over 
time, if you--if that worked, as well.
    Mr. Sheaffer. Absolutely. Our biggest concern, going into 
the program, was the lack of, frankly, contracting support--
Federal employees to execute these contracts. It was an 
enormous--and remains--an enormous workload. We have tried to 
be creative. We've had the cooperation of the Department in 
finding creative ways to execute contracts. I think we're going 
to find, in the end, that we did so very successfully.
    I think that we found that people were challenged to work 
faster, more efficiently, and better than they ever had done 
before. They've done that. So, that's been a very pleasant 
surprise. The cooperation among other Department of the 
Interior bureaus and the Department has been extraordinary, and 
that's been a pleasant surprise, the way it's come out.
    There's no question, in programs like this--of this 
magnitude--that it kind of magnifies any weaknesses that you 
may have. But, we've reacted quickly to try to make up for 
them. So, it's, frankly, been very exciting to be able to do 
and to be able to do work--I've seen some of these projects sit 
on backlog lists and sit on priority lists for many years, and 
we had the opportunity to fund them. So, that's been real 
gratifying for everybody involved.
    Senator Udall. All right. Thank you for that insight. I 
certainly--the subcommittee would welcome additional thoughts, 
moving forward, Mr. Sheaffer, in that regard.
    At a budget hearing last year, Deputy Director Wenk, who 
you know, expressed some hope that the funded projects would 
spur partners to come forward with additional funds that might 
allow for the completion of even more work. Has that happened?
    Mr. Sheaffer. There are only a couple of projects in here 
that were ever anticipated to be partnership projects, Mr. 
Chairman. Because we drew from project lists that were ready, 
that had, for the most part, been planned, or where planning 
was well underway, we couldn't really turn the direction toward 
partnership projects, so to speak. We have a small amount of 
appropriated dollars that have been given to us by the 
Congress--roughly $15 million--that we are using as leverage 
money. But, there are only a couple of projects--significant 
ones here, where we're partnering mostly with States--the State 
of Maryland on a project at the C&O Canal; and the State of 
California on a project at Santa Monica Mountains--both good-
sized, large projects. Again, I think, in both cases, they were 
projects that desperately needed to be done. Maryland kicked in 
with road money, and the State of California kicked in with a 
land transfer. So, opportunities were seized, for good solid 
projects.
    Senator Udall. You noted, the funding authority under the 
Recovery Act expires at the end of the fiscal year, which is 
September 30, yet many of the funded projects will continue 
into next year. Is there a chance any of these projects will be 
left uncompleted once the funding authority expires?
    Mr. Sheaffer. Uncompleted, no. There are provisions that 
will allow us to use funds available to complete the projects, 
if necessary. Now, we have discussed with the appropriators the 
need for some language that would allow us to use other 
available funds to complete some of these projects, should it 
be necessary for change orders and the like, and to continue 
the administration of these projects to the end. So, I think, 
with that one proviso, we'll be able to accommodate all these 
projects.
    Senator Udall. You sound like you've had to play the role 
of a general contractor, writ large. You don't have to respond 
to that, but----
    One last question, before I turn it back to Senator Burr, 
and it's related to that--the question I just asked. Your 
emergency hiring authority expires, as well, I believe, on----
    Mr. Sheaffer. Correct.
    Senator Udall [continuing]. September 30. Your testimony 
notes that the workload associated with those hires will 
continue. How will the Park Service address the loss of those 
positions while getting the projects completely finished?
    Mr. Sheaffer. We have asked for some guidance in that 
regard. We may have to look for another authority to keep these 
people on that we'll need to execute the program. I've already 
started conversations with the Department, and probably OPM, to 
do so. I expect we'll find some way to continue it.
    Senator Udall. I want to turn to Senator Burr.
    I do have one last question for the record. I'll tell you 
that it talks about the difference in some funding in 2 of our 
3 national parks, at Great Sand Dunes and Rocky Mountain 
National Park. But, I'll direct that to you for the record.
    Senator Udall. Senator Burr.
    Senator Burr. I think we used your money already.
    [Laughter.]
    Senator Udall. I'm fond of North Carolina.
    Senator Burr. Mr. Sheaffer----
    Senator Udall. Up to a point.
    Senator Burr [continuing]. Just a quick clarification. On 
the HBCUs and the grants, why 3 years to use that money?
    Mr. Sheaffer. Why 3 years--allowing 3 years----
    Senator Burr. Yes.
    Mr. Sheaffer [continuing]. For them to use that money? Wwe 
have found, in the past, that those colleges and universities 
tend to not have plans ready, as I mentioned earlier. I would 
say, chances of them having, quote, ``shovel-ready'' projects 
was probably slimmer than ours, frankly. We've seen, in the 
past, where it can take them 2 or 3 years to get a major 
project up and done. I think that was anticipated----
    Senator Burr. Just------
    Mr. Sheaffer [continuing]. Frankly.
    Senator Burr [continuing]. Just for your own knowledge, 
I've got seven of 'em. Trust me, they're ready.
    Mr. Sheaffer. They are ready?
    Senator Burr. Yes.
    Mr. Sheaffer. The money's been given to them, Senator. So, 
we'll hope for the best.
    Senator Burr. If you will, briefly--and it may be the 
Chairman knows this--but, can you describe for me what an 
``indefinite-quantity contract'' is and what a ``multiple-award 
task-order contract'' is?
    Mr. Sheaffer. They are both contracting options that are 
available, and used often, beyond this program, to expedite the 
contracting process, where the overall contract allows you to 
go in and develop task orders against the broad contract to get 
a variety of projects done. A few years ago--it was fairly 
amazing--people starting looking for efficiencies from the 
contracting process. It took them, frankly, a long time to get 
to it. This is one of those efficiencies, where they define a 
contract at a large----
    Senator Burr. This----
    Mr. Sheaffer [continuing]. Level----
    Senator Burr [continuing]. Would be a multiproject 
contract?
    Mr. Sheaffer. That's correct.
    Senator Burr. Are both of them the same? A multi-award 
task----
    Mr. Sheaffer. No----
    Senator Burr.--order----
    Mr. Sheaffer [continuing]. The multi----
    Senator Burr [continuing]. Contract----
    Mr. Sheaffer. No, sir, they're not.
    Senator Burr [continuing]. Indefinite-quantity contract?
    Mr. Sheaffer. That would be with a single contractor. The 
other one often involves the use of multiple contractors under 
a blanket contract, where a contractor--let's say you have one 
in the East that would be willing to do work throughout the 
entire East, or throughout the entire Rocky Mountain area, 
multiple States. There's a cap put on it, and you could 
actually toss several contracts their way, and then they would 
find the subcontractors to do the work. Again, it's kind of a 
new model and an expeditious way to go. We've done some very 
successfully in the Intermountain Region, and are beginning to 
do it in the East.
    Senator Burr. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Udall. I thank the Senator from North Carolina.
    I want to thank Mr. Sheaffer. I know I have some additional 
questions, but we'll extend them to you through the process of 
the record.
    I want to thank you for coming up here, for answering all 
of our questions, for the work you've done.
    As you know from your previous experience, some members may 
want to submit additional questions in writing. If so, we may 
ask you to submit answers for the record, as well.
    We'll keep the hearing record open for 2 weeks to receive 
any additional comments.
    Finally, thank you for being such a great general 
contractor. I look forward to seeing a lot of these successes 
in my visits to the parks and the units of the Park Service.
    With that, the subcommittee's adjourned.
    Thank you.
    [Whereupon, at 3:02 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]
 Prepared Statement of Mahmoud R. Hosseini, Division President, Clark 
                        Construction Group, LLC
    Founded in 1906, Clark Construction Group, LLC, is today one of the 
nation's most experienced and respected providers of construction 
services, with over $4.5 billion in annual revenue and major projects 
throughout the United States. In 2008 we ranked 14th in the United 
States on the Engineering News Record Top 400 list.
    We perform a full range of construction services throughout the 
United States from small interior renovations to some of the most 
visible architectural landmarks in the country. Projects we are known 
for in the Washington, DC, area include the Verizon Center, FedEx 
Field, and the United States Institute for Peace. Nationally, completed 
projects include McCormick Place Convention Center in Chicago, the Los 
Angeles County/ University of Southern California Hospital in Los 
Angeles, and Brooke Army Medical Center in San Antonio, Texas. The 
foundation of all of our construction work is a solid relationship with 
both public and private clients who have the confidence to rely, time 
and again, on our experience, and in-house expertise to make their 
vision a reality and a commitment to the communities where we work.
    We approach each project with a cooperative mindset, working with 
clients, architects, subcontractors and the community toward the common 
goal--successful project delivery. Our diverse construction portfolio 
and specialized divisions and subsidiaries ensure that each project is 
matched with appropriate resources and expertise. Through technical 
skill, pre-construction know-how and self-performance capability, we 
anticipate project challenges, develop solutions that meet clients' 
objectives and ultimately deliver award-winning projects. In this way, 
our work today continues to meet the stringent standards of safety, 
quality and integrity, which have been the Company's core values since 
its founding in 1906.
    Today, Clark is pleased to respond to the Subcommittee request to 
address the use of stimulus funds provided by the American Recovery and 
Reinvestment Act of 2009 (ARRA) for the repair of the Thomas Jefferson 
Memorial Seawall.
    To date, we have been awarded four projects which included ARRA 
funding. Three of these projects are in the National Capital area: Air 
National Guard Readiness Center--Area D at Andrews Air Force Base, 
Maryland; Construction of the new U.S. Coast Guard Headquarters 
Building at St. Elizabeth's, Washington, DC, and Emergency Repairs for 
Settlement at the Jefferson Memorial Seawall, Washington DC.
    Emergency Repairs for Settlement at the Jefferson Memorial Seawall 
was awarded on September 17, 2009. This seawall protects one of the 
most recognizable landmarks in Washington, DC, and is slowly sinking. 
Areas surrounding the Jefferson Memorial, which stand directly south of 
the White House on the Potomac River Tidal Basin, have long suffered 
from settlement and lateral movement. Clark Construction Group, LLC, 
was awarded a $12.4 million contract by the National Park Service with 
funds from the ARRA to stabilize the Ashlar Seawall and preserve those 
portions of the famous monument.
    Originally constructed from 1939 to 1943, the Jefferson Memorial 
structure is supported by a deep foundation system that includes 443 
concrete piles and nearly 200 concrete caissons that prevent 
settlement. However, the Ashlar Seawall, which separates the public 
North Plaza from the Tidal Basin, is supported by timber piles that 
investigators believe never reached solid rock during the original 
construction.
    The seawall and the plaza have been subject to settlement since the 
Memorial was dedicated in 1943. By 1965, settlement of the North Plaza 
had reached three feet. Four years later, a reconstruction effort 
placed the North Plaza on structural slab-on-grade beams and piles. 
However, settlement and lateral movement at the North Plaza continued 
as groundwater conditions in the area changed, causing consolidation of 
the soil below.
    To accommodate the repairs, the Clark team will construct a sheet 
pile cofferdam installation this spring, removing water from an area 
within the Tidal Basin along the length of the Ashlar Seawall. Historic 
stone on the seawall will be removed, cleaned, and stored. Clark will 
demolish the existing concrete seawall, install caissons and driven 
pipe piles, and construct a new cast-in-place seawall. Clark will 
further resurface the North Plaza. These repairs are designed to 
provide resistance to both vertical and lateral movement in the North 
Plaza area. Additionally, the memorial's structural transition zones 
leading from the North Plaza will be rebuilt to accommodate future 
settlement of surrounding landscaped areas.
    Clark received notice to proceed with the emergency repairs on this 
critical project on December 7, 2009. As of the first quarter of 2010, 
this project has created 21 new and retained jobs. As with most 
construction projects, different trades work on different stages of the 
project, completing their work and allowing the next set of trades to 
begin work on the following phase. This project is no different. Thus 
not all of the jobs created last the entire length of the project. That 
does not diminish the nature or number of jobs created nor its 
corresponding economic impact.
    The seawall project is approximately 20 percent complete. We expect 
that this project will employ 40 people at its peak in the fall of this 
year. The anticipated completion date is June 2011.
    Stimulus or not, construction jobs help fuel the American economy, 
creating good paying jobs and creating demand for American goods and 
materials.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

  Responses From C. Bruce Sheaffer to Questions From Senator Murkowski
    Question 1. The National Park Service used the process stated in 36 
CFR 1.5 to close hunting and trapping authorized by the Alaska Board of 
Game in park/preserve units. Does NPS dispute that the state provides 
subsistence on park lands, as clearly stated in ANILCA?
    Answer. The Alaska National Interest Lands Conservation Act 
(ANILCA) authorizes subsistence uses pursuant to Title VIII of ANILCA 
by ``local rural residents'' in certain national parks and monuments in 
Alaska. In addition sport hunting and trapping are authorized in those 
park areas in the State labeled as preserves. The Alaska Supreme Court 
found the rural preference provisions of the state's subsistence law 
unconstitutional in 1989. The Departments of Interior and Agriculture 
assumed management of subsistence on federal public lands in 1990. 
Unless and until the state amends its Constitution to meet the 
federally required rural preference, it cannot manage Title VIII 
subsistence. There is no other statutory authorization for state 
managed subsistence on park lands.
    Question 2. The Park Service closed park areas to hunting and 
trapping based on ``national park values'' which are not among the 
statutory criteria for restricting state authorized hunting and 
trapping. These values seem in direct contradiction of the 
Congressional intent of ANILCA. How will the Park Service reconcile 
these differences?
    Answer. Section 1313 of the Alaska National Interest Lands 
Conservation Act authorizes Federal restrictions on hunting and 
trapping for ``public safety, administration, floral and faunal 
protection, or public use and enjoyment.'' National park values 
encompass all of those items. In addition, section 201 of ANILCA 
identifies the purposes for which the Alaska parks were established. 
Included in these are the protection of populations of wolves and 
bears.
    In the case of Yukon-Charley Rivers National Preserve, the purposes 
of the preserve expressly include the protection of wolves. The Yukon-
Charley Rivers National Preserve also provides hunting and trapping 
opportunities for local rural residents under Title VIII of ANILCA. The 
restrictions on sport take of wolves were prompted by a 43 percent 
decline in wolf numbers and the loss of one complete wolf pack in the 
preceding months. Because the state-authorized method of killing black 
bear sows and cubs at den sites was allowed for any resident hunter in 
Alaska, the Federal restriction was enacted to help prevent a loss of 
natural abundance and changes in distribution, and behavior.
    Question 3. Reports have indicated that NPS made its decision to 
close park areas to hunting and trapping prior to consulting with the 
Department of Fish and Game and without consulting with the affected 
user groups, despite requests from such groups, inconsistent with the 
park closure regulations.

          a. If the Park Service did indeed meet with affected use 
        groups, can you please provide a list of the user groups which 
        were consulted prior to the decision to close park areas?
          b. What is the NPS' process for consulting with affected 
        users prior to closures that are not an emergency?
          c. Were the Alaska Native organizations consulted or just 
        provided notice of hearings?
          d. Were the local residents of Huslia that requested the 
        Board of Game authorize spring bear take consulted about your 
        intent to supersede the State's authorization of a longstanding 
        customary and traditional subsistence practice?

    Answer. Any reports suggesting that closure decisions were made by 
the National Park Service prior to consultation with the Alaska 
Department of Fish and Game are incorrect. Our concerns regarding the 
allowance for anyone with a state hunting license to kill black bear 
sows and cubs at den sites in portions of Denali and Gates of the 
Arctic National Preserve were initially conveyed on May 19, 2009, in a 
meeting with Alaska Department of Fish and Game regional supervisors. 
More than a dozen subsequent meetings and lengthy phone conversations 
were held with ADFG management, up to and including the Commissioner.
    The NPS engaged in an extensive public process regarding both the 
bear sow/cub restrictions and the wolf hunting closure. These included 
publishing advertisements and issuing press releases on the 
availability of the proposed restriction for comment as part of the 
annual compendium process; media interviews; posting public notices; 
written proposals and oral testimony as part of the Board of Game's 
public process; a meeting with the Denali Subsistence Resource 
Commission on February 21, 2010; and public hearings in the communities 
closest to the affected units (Eagle, Allakaket, Nikolai, Fairbanks and 
Denali Park). The Allakaket meeting included the village council chiefs 
of Alatna and Allakaket. The State of Alaska commented in writing about 
the proposed compendium closures on February 16, March 22, and March 
29.
    Regulations at 36 CFR 13.50(f)(1) require the NPS to provide notice 
of closures by the following methods: ``Published in at least one 
newspaper of general circulation in the State and in at least one local 
newspaper if available, posted at community post offices within the 
vicinity affected, made available for broadcast on local radio stations 
in a manner reasonably calculated to inform residents in the affected 
vicinity, and designated on a map which shall be available for public 
inspection at the office of the Superintendent and other places 
convenient to the public.''
    The efforts described above were judged successful, as about 60 
people attended public hearings, and additional comments were received, 
including comments from user groups such as the Alaska Trappers 
Association and the Alaska Outdoor Council.
    The community of Allakaket was selected for a public hearing as it 
was the closest village to Gates of the Arctic National Preserve and is 
one of the park's subsistence resident zone communities (as is Alatna, 
but not Huslia). Public statements and discussions with area residents 
also noted that if the bear hunting practice approved for all state 
residents was brought to the Federal Subsistence Board for 
consideration as a hunting method for local rural residents under Title 
VIII of ANILCA, the NPS would be likely to support the proposal. The 
issue has already been discussed at the late April meeting of the Gates 
of the Arctic Subsistence Resource Commission in Barrow.
    Question 4. Can you please describe in detail why the NPS would 
close park-managed lands to a state authorized hunting or trapping 
activity even though the NPS conceded there was no biological 
emergency?
    Answer. Biological emergencies are not the only reasons for hunting 
and trapping closures. As noted above, Section 1313 of the ANILCA 
authorizes Federal restrictions on hunting and trapping for ``public 
safety, administration, floral and faunal protection, or public use and 
enjoyment.'' Additionally, regulations at 36 CFR 13.50 provide for 
closures on an emergency, temporary, or permanent basis. Under the 
regulation, the Service is guided by ``factors such as public health 
and safety, resource protection, protection of cultural or scientific 
values, subsistence uses, endangered or threatened species 
conservation, and other management considerations necessary to ensure 
that the activity or area is being managed in a manner compatible with 
the purposes for which the park area was established.''
    As described in Answer #2, the decision by the State of Alaska to 
allow any resident with a hunting license to engage in the unusual 
practice of taking black bear sows and cubs at den sites, and 
increasing hunter efficiency by allowing the use of artificial light, 
brought about a potential for a harvest that would adversely change the 
natural distribution, behavior, and abundance of bears in Denali and 
Gates of the Arctic. Similarly, the 43 percent drop in Yukon-Charley 
wolf numbers, when paired with an active aerial predator control 
program immediately outside the preserve boundary, has left 26 wolves 
(known through radio collars and other tracking methods) that spend 
much of their time within the 2.7 million acre preserve. Given that low 
population level, the natural integrity of these populations is 
compromised and subsistence trapping opportunities are reduced. These 
factors resulted in the closure under 36 CFR 13.50.
    Question 5. How do you reconcile the use of technology as customary 
and traditional in Gates of the Arctic NPP for the transportation for 
hunters (ORVs), while making rules against the ``technology'' of using 
a flashlight to determine the presence of cubs or the gender of black 
bears within a den?
    Answer. Certain types of technology, such as snowmachines when 
ground conditions are favorable, are authorized in Gates of the Arctic 
National Park and Preserve to support lawful hunter access. Other types 
of technology, such as ORVs are not authorized. The practice of taking 
bear cubs and sows with cubs at den sites has been generally prohibited 
in Alaska since statehood. This is in keeping with traditional 
management principles by which hunters avoid animals at their most 
vulnerable state. At the time the state allowance for this method of 
taking sows and cubs was authorized, and at the time the Federal 
restrictions were proposed, the written finding of the Alaska Board of 
Game protected sows and cubs from harvest unless it was necessary as 
part of a bear predator control program. The provision for the use of 
artificial light further added to the efficiency by which hunters could 
kill sows and cubs. State laws which seek to manipulate wildlife 
populations in favor of prey species, or which have that practical 
effect, are inconsistent with NPS statutes, regulations, and policies 
and exceed the authorization for sport hunting contained in ANILCA.
    Existing Federal Subsistence Board regulations (developed from 
long-standing State prohibitions) prohibit the take of black bear sows 
and cubs and the use of artificial lights on Federal public lands. The 
recent state authorizations in question undermined these subsistence 
regulations; the practical effect being that a local rural hunter 
hunting under subsistence is prohibited from taking these bears by this 
means, but a sport hunter from an urban area can use artificial lights 
and kill sows and cubs. The NPS closure brought uniformity to the 
regulations, and we encouraged Federal subsistence users to apply to 
the Federal Subsistence Board if they desire to use these means in 
these preserves.
    Question 6. Wouldn't Federal funds currently being expended by NPS 
to ``manage wildlife'' be more appropriately directed as a ``pass-
through'' to the proper State wildlife management agency?
    Answer. The State of Alaska has a substantial role in managing 
wildlife on state and Federal land; however, that role is not solely 
theirs nor is their authority unlimited. The National Park Service 
Organic Act, ANILCA, and other laws address Federal responsibilities in 
managing wildlife and other activities to meet the park purposes 
mandated by Congress. Federal funds allow the NPS to meet those 
responsibilities. To a large extent, state hunting and fishing 
regulations do not conflict with National Park System purposes and are 
supported and enforced in national preserves. This spring's regulatory 
actions responded to circumstances where the mandates of the National 
Park System differ from the recent direction taken by the Alaska Board 
of Game and implemented by the Alaska Department of Fish and Game.
    It is important to note that significant Federal funding already 
benefits Alaska's fish and wildlife management; for instance, on March 
2, 2010, the Department of the Interior announced $39.6 million in 
Wildlife and Sport Fish Restoration Program grants to the state of 
Alaska. Additional National Park Service funds are spent in support of 
our partnership role with the state of Alaska in managing fish and 
wildlife resources. Many of these research projects can be viewed at 
http://science.nature.nps.gov/im/units/AKRO/index.cfm.

                                    

      

</pre></body></html>
